1

2020 U.S. App. LEXIS 22S6S
Mo. 19-5545
July 20, 2020, Filed

MOT RECOMMENDED FOR ™LL-TEXTp^ESEE^UL^M BEFORE aTIN^W A PROCEEDING
CITATION TO SPECIFIC SITUATIONS PLEAw

U

SERVED ON OTHER. PARTIES
—!S

REPRODUCED.
Editorial Information: Prior History

Tenn., May 2, 2019)
Counsel

Tamrai Guzman, Plaintiff - Appellant, Pro se,r^lah^®®eg.LSamuel R
For United States of America, Defendant - Appellee. Samuel k.
,TN.

Judges:

Opinion

ORDER
Tamrai Guzman, a federal prisoner proceeding pm>appealsa
motions for compassionate release and for ci trace
V'
^

United States v. Guzman, 571 F. App x 356 35^6 Ji ^
U.S.C. § 2255 motion to vacate, set{2020 U-S-*PP-1-Ez"

)

a
argument is not needed. See

or corred her sentence, which
y.S. Dist. LEXIS 53936,

the district court denied. Guzman v.
and this court declined to issue a
2018 WL T586099 (E.D. Tenn. Mar. 30; 231 ^
N 18.54o5 (6th Cir. Aug. 7, 2018). Guzman
certificate of appealability. Guzman v. United^Sfa , N .18
tr(aceabi,ity hearing regarding the
then filed a motion for compassionate: re ease> and a ™J°n ^ for comp'ssionate release
SeiZUfe “GuzmantKfexhaus, her administrative remedies and denied the motion for a
because

CIRHOT

1

All rights reserved. Use of this product is subject to the
© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group _
restrictions and terms and conditions of the Matthew Bender Master Agreement.

IQfperut-tt ft

was

traceability hearing because the court had piously
?,o-c"

<ED'Tenn-May 2'2019)-

On appeal, Guzman argues that the district court
hearing and in denying her motion for compassionate
that the district court erred in denying her § 225

Sizmafargues
uh^“|,t^lew those9
’

a,readv declined to issuea certificate

ofl,hat mo,ion {202° u's-App'LEX,S 3> See u"i,ed

States v. Bryant 246 F.3d 650, 653 (6th Cir. 2001).

_ ss^ssr«?«SS?JS
Guzman

we may remedy the error by construing G™'s;"^

(6th Cir.

SES=H=E=i=='r»
SSSS: SrSme^nmenSir Si^ Amendment rights by

retaining{2020 U.S. App. LEXIS 4} her untainted assets.
district court's determination that a defendant is ineligible for a sentence
We
reviewUnited
de novo
a
reduction.
States
v. Watkins, 625 F.3d 211 280 (6th Cir. 201 ^^ def®n^n ^
^
motion in the district court for oornpass.onate r^ease onlyf ^^tf™nmotlon
the
all administrative rights to appeal a failure o
defendant's SSS'wSST if^TlsTsl 5

. , nf such a reauest by the warden of the
~ ^"7

she

d^o^s^e'TTsTsompli^with^'sdSgtcHIXA), the district court did not err in denying her
request for compassionate release.

motions as moot.

CIRHOT

TAMRAL GUZMAN, Defendant-Petitioner, v. UNITED STATES OF AMERICA, Plaintiff-Respondent.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF TENNESSEE
2019 U.S. Dist. LEXIS 73989
Nos.: 3:10-CR-161 -TAV-DCP.3:15-CV-57-TAV
May 2, 2019, Filed
_______
Editorial Information: Subsequent History
Reconsideration denied by United States v. Guzman, 2019 U.S. Dist. LEXIS 123325 (E.D. Tenn., July
24,2019)
Editorial Information: Prior History
Guzman v. United States, 2018 U.S. Dist. LEXIS 53936 (E.D. Tenn., Mar. 30, 2018)
{2019 U.S. Dist. LEXIS 1}For Bobbie Joann Hackler, Unnamed
Defendant (3:10-cr-00161-TAV-DCP-1): Jonathan A Moffatt, LEAD ATTORNEY, Federal
Defender Services of Eastern Tennessee, Inc. (Knox), Knoxville, TN.
For USA, Plaintiff (3:10-cr-00161-TAV-DCP-1): Jennifer
Kolman, LEAD ATTORNEY, U S Department of Justice (Knox USAO), Office of U S
Attorney, Knoxville, TN; Anne-Marie Svolto, Frank M Dale, Jr, U S Department of Justice
(Knox USAO), Office of U S Attorney, Knoxville, TN.
Tamral Guzman, Petitioner (3:15-cv-00057-TAV), Pro se, FORT
WORTH, TX.
Judges: Thomas A. Varlan, UNITED STATES DISTRICT JUDGE.
Counsel

Opinion
Opinion by:

Thomas A. Varlan
Opinion

MEMORANDUM OPINION AND ORDER
Before the Court are several motions pertaining to defendant-petitionerl Tamral Guzman's criminal
case and associated civil case under 28 U.S.C. § 2255. Two of these motions relate to defendant's
sentence in her criminal case: she has moved for a reduction in her sentence under 18 U.S.C. §
3582 and Amendment 782 of the United States Sentencing Guidelines [Doc. 343], and for
compassionate release under 18 U.S.C. § 3582(c)(1)(A) [Doc. 352], The remaining three motions
apparently pertain to defendant's § 2255 motion, which this Court denied on March 30, 2018: she has
moved for leave to proceed in forma pauperis on appeal [Doc. 345] and for a certificate{2019 U.S.
Dist. LEXIS 2} of appealability [Doc. 346], and also for a traceability hearing and entry of final
judgment on the civil docket [Doc. 353]. These motions will be addressed in turn.
I. Reduction of sentence under 18 U.S.C. § 3582 and Amendment 782
Defendant seeks a sentence reduction in light of Amendment 782, which lowers the base offense
level for many drug offenses [Doc. 343]. However, because Amendment 782 does not reduce

1 yfcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

435120

defendant's guidelines range, she is ineligible for any sentence reduction under 18 U.S.C. §
3582(c)(2). This motion will therefore be denied.
"Federal courts are forbidden, as a general matter, to modify a term of imprisonment once it has
been imposed, but the rule of finality is subject to a few narrow exceptions." Freeman v. United
States, 564 U.S. 522, 131 S. Ct. 2685, 2690, 180 L. Ed. 2d 519 (2011) (internal citation and
quotation marks omitted). One exception is identified in 18 U.S.C. § 3582(c)(2):
[l]n the case of a defendant who has been sentenced to a term of imprisonment based on a
sentencing range that has subsequently been lowered by the Sentencing Commission .. ., the
court may reduce the term of imprisonment, after considering the factors set forth in section
3553(a) to the extent that they are applicable, if such a reduction is consistent with applicable
policy statements issued by the Sentencing Commission.Id.
Here, defendant{2019 U.S. Dist. LEXIS 3} was deemed responsible for a quantity of oxycodone
equivalent to 127,564 kilograms of marijuana [Doc. 291], which, under the version of the guidelines
in effect at the time of her sentencing, was well over the 30,000 kilograms required for the highest
base offense level of 38. Defendant also received a two-level enhancement for maintaining drug
premises, a two-level enhancement for obstructing justice, a two-level enhancement for
money-laundering, a four-level leadership-role enhancement, and a three-level reduction for
acceptance of responsibility as to the money-laundering offense, resulting in a total offense level well
in excess of 43, which is treated as if it were 43.
Because of defendant's high drug quantity, relief under Amendment 782 is unavailable. Even under
the lower limits established by Amendment 782, under which base offense level 38 applies to
quantities in excess of 90,000 kilograms of marijuana, defendant's drug quantity-127,564 kilograms
of marijuana equivalent-still results in a base offense level of 38. See U.S.S.G. § 2D1.1(c)(1) (2016).
Defendant's total offense level and guidelines range are thus unchanged. Because Amendment 782
does not lower defendant's guidelines range, this Court cannot reduce{2019 U.S. Dist. LEXIS 4} her
sentence. This motion will therefore be denied.
II. Compassionate Release under 18 U.S.C. § 3582(c)(1)(A)
Defendant has moved for compassionate release under 18 U.S.C. § 3582(c)(1)(A) [Doc. 342], which
allows the Court to "modify a term of imprisonment" if "extraordinary and compelling reasons warrant
such a reduction." However, the statute permits a defendant to file such a motion only "after the
defendant has fully exhausted all administrative rights to appeal a failure of the Bureau of Prisons to
bring a motion on the defendant's behalf or the lapse of 30 days from the receipt of such a request
by the warden of the defendant's facility, whichever is earlier." Defendant's motion does not indicate
whether she has satisfied, or has attempted to satisfy, this exhaustion requirement. The Court
therefore lacks statutory authorization to modify defendant's sentence under § 3582(c)(1)(A), and so
defendant's motion on that basis will be denied [Doc. 342].
III. In forma pauperis status and certificate of appealability
With respect to her previously denied motion under § 2255, Defendant has moved for leave to
proceed in forma pauperis on appeal [Doc. 345] and for a certificate of appealability [Doc. 346]. But
the Court has already ruled on this issue. The memorandum{2019 U.S. Dist. LEXIS 5} opinion
denying defendant's § 2255 motion provided as follows:
The Court will CERTIFY that any appeal from this action would not be taken in good faith and
would be totally frivolous. Therefore, this Court will DENY petitioner leave to proceed in forma
pauperis on appeal. See Fed. R. App. Proc. 24. Petitioner having failed to make a substantial

lyfcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

43o':nr. ■'

showing of the denial of a constitutional right, a certificate of appealability SHALL NOT ISSUE.
28 U.S.C. § 2253; Fed. R. Ap. Proc. Rule 22(b).Defendant does not mention this ruling and has
made no argument about why the Court should reconsider it. Therefore both of these motions
will be denied [Docs. 345, 346].
IV. Traceability hearing and entry of judgment on the civil docket
Finally, defendant has moved for a traceability hearing with respect to the seizure of purportedly
untainted property, and for entry of judgment on the civil docket [Doc. 353]. The former will be
denied, and the latter granted.
Defendant argues that some of her untainted property was illegally seized pretrial by the
government, which prevented her from retaining counsel and thus violated her Sixth Amendment
right to her choice of counsel under Luis v. United States, 136 S. Ct. 1083, 194 L. Ed. 2d 256 (2016).
This argument was raised and rejected, for multiple reasons, in this Court's prior memorandum
denying her § 2255 motion{2019 U.S. Dist. LEXIS 6} [Doc. 340]. It is therefore not necessary to hold
a hearing on this issue. This part of defendant's motion will be denied.2
Defendant also requests that judgment on her § 2255 motion be entered on the civil docket, rather
than just the related criminal docket. The motion will be granted to this extent only.
V. Conclusion
For the reasons explained above, defendant's motion for a reduction in her sentence [Doc. 343] is
DENIED. Defendant's motion for compassionate release is also DENIED [Doc. 352]. With respect to
defendant's civil case, her motion for leave to proceed in forma pauperis on appeal [Doc. 345] and
for a certificate of appealability [Doc. 346] are both DENIED. Finally, defendant's motion for a
traceability hearing and entry of judgment on the civil docket [Doc. 353], is GRANTED only to the
extent that the Clerk of Court is DIRECTED to enter the Court's judgment [Doc. 341] on the civil
docket for defendant's § 2255 case, No. 3:15-cv-57-TAV. The motion is otherwise DENIED [Doc.
353],
IT IS SO ORDERED.
Isi Thomas A. Varlan
UNITED STATES DISTRICT JUDGE
Footnotes

1
For the sake of simplicity this opinion will refer to Guzman as merely as "defendant" rather than the
technically correct term, "defendant-petitioner."
2
To the extent this motion also requests a certificate of appealability on this issue, it is also denied for
the reasons given in the Court's prior memorandum opinion, quoted on the previous page.

1 yfcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

435'i 2Q7/:

<L>

* --

TAMRAL GUZMAN, Petitioner, v. UNITED STATES OF AMERICA, Respondent.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF TENNESSEE
2018 U.S. Dist. LEXIS 53936
Nos.: 3:10-CR-161-TAV-DCP,3:15-CV-57
March 30, 2018, Filed
Editorial Information: Subsequent History
Petition denied by Guzman v. United States, 2018 U.S. App. LEXIS 27697 (6th Cir., Sept. 27,
2018)Motion denied by, Certificate of appealability denied, Motion granted by, in part, Motion denied by,
in part Guzman v. United States, 2019 U.S. Dist. LEXIS 73989 (E.D. Tenn., May 2, 2019)
Editorial Information: Prior History
United States v. Guzman, 571 Fed. Appx.. 356, 2014 U.S. App. LEXIS 12715 (6th Cir. Tenn., July 2,
2014)
{2018 U.S. Dist. LEXIS 1}For USA, Plaintiff (3:10-cr-00161): Jennifer
Kolman, LEAD ATTORNEY, Frank M Dale, Jr, U S Department of Justice (Knox USAO),
Office of U S Attorney, Knoxville, TN.
Tamral Guzman, Petitioner (3:15-cv-00057-TAV), Pro se, FORT
WORTH, TX.
Judges: Thomas A. Varlan, CHIEF UNITED STATES DISTRICT JUDGE.
Counsel

Opinion
Opinion by:

Thomas A. Varlan
Opinion

MEMORANDUM OPINION AND ORDER
Before the Court is Petitioner's pro se motion to vacate, set aside, or correct her sentence pursuant
to 28 U-S.C. § 2255 [Doc. 303] and her reply to the Response of the United States [Doc. 324],1
During pendency of the action, Petitioner filed an Addendum [Doc. 325] alleging a new claim that a
2011 Tennessee law creating a regulatory scheme for pain management clinics caused her federal
conviction to violate the Ex Post Facto Clause2 and a Motion to Amend her § 2255 petition asserting
new purported claims based on Luis v. United States, 136 S. Ct. 1083, 194 L. Ed. 2d 256 (2016)
[Doc. 329]. The United States ("Government") responded in opposition to the original petition [Doc.
320] and proposed amendment [Doc. 337],3
I. BACKGROUND
In December 2010, a federal grand jury returned an indictment against Petitioner Tamral Guzman
("Petitioner") [Doc. 3]. Ultimately, Petitioner was charged in a Third Superseding Indictment with
fifty-seven felony counts arising from the operation{2018 U.S. Dist. LEXIS 2} of an illicit pain

1 yfcases

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

management clinic, including conspiracy to distribute controlled substances, including oxycodone,
hydrocodone, and others, in violation of 21 U.S.C. § 846, possession with intent to distribute
controlled substances, in violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(C), and 841(b)(2), money
laundering, in violation of 18 U.S.C. §§ 1956(a)(1)(A)(i) and 1956(a)(1)(B)(ii), and structuring, in
violation of 31 U.S.C. §§ 5324(a)(3) and 5324(d)(2) [Doc. 103], Attorney Michael Menefee was
appointed by the Court to represent Petitioner, and his representation continued through the trial and
appellate proceedings [Doc. 17]. Petitioner's case proceeded to a jury trial in September 2012, and
the jury convicted Petitioner as charged [Doc. 259 pp. 1-2].
Petitioner was sentenced to an aggregate term of 240 months' imprisonment for the primary offenses
[Doc. 259 pp. 2-3], In addition, Petitioner was sentenced to another eighteen months, to be served
consecutively [Doc. 259 pp. 1-3], for absconding before the last day of trial. She was apprehended in
Florida on October 31, 2012 [Doc. 233-5 p. 1], Petitioner entered a guilty plea to the charge of willful
failure to appear in violation of 18 U.S.C. § 3146(a)(1) pursuant to a signed plea agreement in Case
No. 3:12-CR-0153.4
Sentencing in both cases was set on April 18, 2013. Just prior to sentencing,(2018 U.S. Dist. LEXIS
3} on April 17, 2013, Petitioner filed a Motion for a Judgment of Acquittal or in the Alternative Motion
for New Trial [Doc. 257], Petitioner asserted several grounds for relief, including the presence of
errors during the course of trial requiring acquittal and/or a new trial and the discovery of new
material evidence warranting a new trial. Judgment was entered on April 29, 2013 [Doc. 259], and by
order entered August 5, 2013, the Court denied Petitioner's Motion for a Judgment of Acquittal or in
the Alternative for New Trial [Doc. 275]. Petitioner filed a Notice of Appeal on August 7, 2013 [Doc.
276], and the Court of Appeals for the Sixth Circuit affirmed the conviction on July 2, 2014 [Doc.
299]. Petitioner's original § 2255 motion was timely filed on February 2, 2015 [Doc. 303]. However,
as addressed later in this opinion, Petitioner's Addendum to her § 2255 motion [Doc. 325], filed on
October 22, 2015, and Plaintiff's Motion to Amend [Doc. 329], filed on April 11, 2016, both raising
new claims, were filed beyond the applicable one-year statute of limitations.
II. STANDARD OF REVIEW AND ANALYSIS OF ORIGINAL § 2255 MOTION
The relief authorized by 28 U.S.C. § 2255 "does not encompass all claimed errors in conviction and
sentencing." United States v. Addonizio, 442 U.S. 178, 185, 99 S. Ct. 2235, 60 L. Ed. 2d 805 (1979).
Rather, to obtain relief under{2018 U.S. Dist. LEXIS 4} § 2255, a petitioner must establish "(1) an
error of constitutional magnitude; (2) a sentence imposed outside the statutory limits; or (3) an error
of fact or law that was so fundamental as to render the entire process invalid.” Short v. United States,
471 F.3d 686, 691 (6th Cir. 2006) (citation omitted). In other words, petitioner cannot prevail absent a
showing of "a 'fundamental defect' in the proceedings which necessarily results in a complete
miscarriage of justice or an egregious error violative of due process." Fairv. United States, 157 F.3d
427, 430 (6th Cir. 1998) (citation omitted). Under this standard, a petitioner "must clear a significantly
higher hurdle [to obtain relief] than would exist on direct appeal." Id. (quoting United States v. Frady,
456 U.S. 152, 166, 102 S. Ct. 1584, 71 L. Ed. 2d 816 (1982)).
Petitioner raises nine grounds for relief in her original § 2255 motion. She states these grounds as
follows:
1. Ground One-Ineffective assistance of counsel by failure to investigate (a) the motivations of
her coconspirator, Maimoune Wright ("Wright"), (b) the reasons for the Government's seizure of
only 59 files from Maryville Pain Management, LLC ("MPM"), (c) the role of Melvin Viney
("Viney") in discharging 600 patients in 90 days and the basis for Viney's discharge decisions,
and (d) the legitimacy of the conspiracy charges, since no other co-conspirator was
convicted{2018 U.S. Dist. LEXIS 5} [Doc. 303 p. 4],

1 yfcases

2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

43512C74

2. Ground Two-Ineffective assistance of counsel by failure to raise challenges to (a) her
conspiracy conviction in absence of a conviction of her co-defendant Wright and (b) "the
variance in Count Two between the indictment and evidence presented at trial" [Doc. 303 p.5].
3. Ground Three-Ineffective assistance of counsel by failure to (a) file pre-trial motions [Doc. 303
pp. 6-7], (b) call witnesses [Id.], and (c) submit a timely motion for a new trial [Doc. 303-1 p. 41].
4. Ground Four-Ineffective assistance of counsel by failure to Challenge the number of files
reviewed, drug quantities and "relevant conduct" [Doc. 303 p. 8].
5. Ground Five-Sufficiency of evidence for convictions on Counts One and Two [Doc. 303 pp.
9-10].
6. Ground Six-Sufficiency of evidence for money laundering and money structuring counts [Doc.
303 p. 10].
7. Ground Seven-Error of Court in applying the leadership enhancement in determining her
sentence [Doc. 303 p. 11].
8. Ground Eight-Error of Court in the calculation of drug computation for purposes of establishing
forfeiture amount [Doc. 303 p. 12].
9. Ground Nine-A violation of the Ex Post Facto Clause claiming that the 2009 Sentencing
Guidelines, which were in effect{2018 U.S. Dist. LEXIS 6} at the time the crimes were
committed, should have been used instead of the 2012 Sentencing Guidelines in effect at the
time of her sentencing and ineffective assistance of counsel in failing to raise this challenge
[Doc. 303 p. 13].
These nine grounds can be categorized under three general grounds of collateral attack: ineffective
assistance of counsel, sufficiency of evidence, and trial court errors.
A. Ineffective Assistance of Counsel
A petitioner alleging ineffective assistance of counsel must satisfy a two-part test. Strickland v.
Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1987); see also Huffv. United
States, 734 F.3d 600, 606 (6th Cir. 2013). First, petitioner must establish, by identifying specific acts
or omissions, that counsel's performance was deficient and that counsel did not provide "reasonably
effective assistance," id., as measured by "prevailing professional norms," Rompilla v. Beard, 545
U.S. 374, 380, 125 S. Ct. 2456, 162 L. Ed. 2d 360 (2005). Counsel is presumed to have provided
effective assistance, and petitioner bears the burden of showing otherwise. Mason v. Mitchell, 320
F.3d 604, 616-17 (6th Cir. 2003); see also Strickland, 466 U.S. at 689 (a reviewing court "must
indulge a strong presumption that counsel's conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that... the
challenged action might be considered sound trial strategy") (internal citation omitted).(2018 U.S.
Dist. LEXIS 7}
Second, petitioner must demonstrate prejudice, which means that "there is a reasonable probability
that, but for [counsel's acts or omissions], the result of the proceeding would have been different."
Strickland, 466 U.S. at 694. "An error by counsel, even if professionally unreasonable, does not
warrant setting aside the judgment of a criminal proceeding if the error had no effect on the
judgment." Id. at 691; see also Smith v. Robbins, 528 U.S. 259, 285-86, 120 S. Ct. 746, 145 L. Ed.
2d 756 (2000). If a petitioner fails to prove that he sustained prejudice, the Court need not decide
whether counsel's performance was deficient. See United States v. Hynes, 467 F.3d 951, 970 (6th
Cir. 2006) (holding that alleged "flaws" in trial counsel's representation did not warrant new trial

1 yfcases

3

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

where the claims, even if true, did not demonstrate that the jury would have reached a different
conclusion).
Petitioner articulates three theories of ineffective assistance, including counsel's alleged failure to:
(1) investigate possible defenses; (2) file pretrial motions or call witnesses; and (3) file a timely
motion for new trial, challenge the variance between the indictment and the proof, and challenge the
conspiracy conviction in the absence of a co-defendant's conviction. Petitioner also raises interlinked
claims of ineffective assistance of counsel in failure to challenge{2018 U.S. Dist. LEXIS 8} purported
errors by the Court during sentencing, including the calculation of drug quantities, application of the
leadership role enhancement, forfeiture amounts, and use of the 2012 Sentencing Guidelines. These
entwined issues will be addressed in Section II.C. below.
1. Investigation of Possible Defenses
Petitioner sets forth four claims of ineffective assistance of counsel with regard to failure to
investigate possible defenses, including (a) the motivations of her coconspirator, Maimoune Wright
("Wright") [Doc. 303 p. 4]; (b) the reasons for the Government's seizure of only fifty-nine files from
Maryville Pain Management, LLC ("MPM") [Id.] and the basis of the file identification and selection
criteria for the MPM files [Id. at 8; Doc. 303-1 pp. 42-54]; (c) the role of Melvin Viney ("Viney") in
discharging 600 patients in ninety days and the basis for Viney's discharge decisions; and (d) the
legitimacy of the conspiracy charges, since no other coconspirator was convicted [Doc. 303 p. 4].
While she argues that her attorney should have further investigated each of these matters, Petitioner
offers only unsubstantiated assertions regarding what her attorney investigated or failed to
investigate{2018 U.S. Dist. LEXIS 9} and no proof of a reasonable probability that, but for the
attorney's acts or omissions, the outcome of the trial would have been different.
Petitioner generally asserts that the "major category" that should have been challenged by counsel
was the role played by Wright [Doc. 303-1 p. 28], but she fails to state what difference a further
challenge or investigation would have revealed other than Petitioner's belief that Wright was
intending to start another pain management clinic. Id. In response to Petitioner's assertion, the
Government argues that the proof at trial demonstrated that Petitioner and Wright conspired to
distribute controlled substances, which rendered Wright's underlying motivations of starting her own
pain clinic to steal Petitioner's customers, even if proven, irrelevant and of no impact upon
Petitioner's guilt or innocence [Doc. 320 p. 15]. Petitioner's charge that counsel failed to challenge
Wright's role is completely conclusory and not supported by any factual allegation or analysis to
show how further investigation would have been favorable to her or relevant to her defense.
Petitioner next argues that her counsel should have investigated the reason for the
Government's{2018 U.S. Dist. LEXIS 10} seizure of only fifty-nine MPM files. She states that "only
59 files out of nearly 2000 were selected by the government and the law enforcement officers seized
those 59 files based on specific names" [Doc. 303-1 p. 29]. While Petitioner maintains that this
allegation presents an "important question," she fails to explain the basis for this assertion. Id. In
response, the Government states that Petitioner's speculation that there must have been some
underlying reason for the Government's seizure of only fifty-nine MPM files, which her attorney
should have investigated, is without basis. The Government notes that Joni Seratt, a former Fifth
Judicial Drug Task Officer who was involved in the investigation, testified at trial that the search
warrant executed at MPM only authorized the seizure of those specific files as they related to reports
regarding MPM while it was in operation and witness statements that were made during the course of
the investigation [Doc. 320 p. 16].5 Petitioner offers no proof of a reasonable probability that different
or additional files would have offered any exculpatory evidence on Petitioner's behalf at trial.
Related to this point, Petitioner argues that her{2018 U.S. Dist. LEXIS 11} attorney provided

l yfcases

4

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

'YSSW/t 4

ineffective assistance in that he "did not pursue determination of the basis on which files were
identified by the government and the selection criteria utilized" [Docs. 303 p. 8; 303-1 pp. 42-54],
Petitioner claims that the "defense attorney was responsible for investigating this information, but
failed to do so" [Doc. 303-1 p. 51]. She asserts that based upon this lack of investigation, her
attorney was not "prepared effectively ... to refute the spreadsheets and drug quantity used in
sentencing" [Doc. 303 p. 8]. As discussed above, the search warrant executed at MPM did not permit
the seizure of all customer files, but only those for certain customers identified through the course of
the investigation. This formed the basis for the file selection, and as pointed out by the Government,
there was nothing else in terms of "selection criteria" [Doc. 320 p. 22], Although Petitioner argues
that "the number of files used for the creation of the government spreadsheet were [sic] not
representative of the total number of clinic files" [Doc. 303 p. 8], she fails to identify any additional
files that might have demonstrated the legitimacy of MPM and negated the evidence{2018 U.S. Dist.
LEXIS 12} of her claim. Here, Petitioner's contentions amount to factually void speculation, and
speculation is insufficient to support her claim of ineffective assistance of counsel.
With regard to Petitioner's argument concerning her attorney's alleged failure to investigate Viney,
Petitioner offers only questions that she thinks could have been directed to Viney, but no proof that
the answers would have had any bearing upon the determination of her guilt [Docs. 303 p. 4; 303-1
p. 29]. For example, Petitioner claims that her attorney should have explored why Viney discharged
600 patients within a ninety-day period: In response, the Government relates that Viney's trial
testimony revealed that the basis for his discharging patients during his first ninety days at MPM was
because he learned that Petitioner had no license or medical training and had been seeing patients,
so he immediately began discharging those patients to whom Petitioner had been unlawfully
prescribing pills [Doc. 320 p. 16]. Other than raising general questions concerning Viney, Petitioner
has produced no evidence indicating what could have been learned from further investigation and
supported with anticipated testimony that{2018 U.S. Dist. LEXIS 13} ultimately would have changed
the outcome.
Finally, Petitioner poses the question, "How could the defendant be singularly convicted of
conspiracy, without any co-conspirators also being convicted?" [Doc. 303-1 p. 29]. She claims that
her counsel was ineffective in investigating the legitimacy of the conspiracy charges brought against
her when no coconspirator (Wright) was convicted. In response, the Government points out that
Petitioner's arguments are premised upon an incorrect understanding of conspiracy law. Under
federal conspiracy law, even "if charges are never brought against other coconspirators, if charges
are dismissed against all other coconspirators, or if a coconspirator has not yet been tried, dismissal
of charges against the remaining coconspirator is not required" [Doc. 320 p. 18 (quoting United
States v. Sachs, 801 F.2d 839, 845 (6th Cir. 1986))]. In this regard, Petitioner fails to identify how the
outcome would have been different if counsel had challenged the conspiracy charges on the ground
that no coconspirator was convicted. With there being no requirement that coconspirator Wright (who
died before her case could go to trial) be convicted in order for Petitioner to be convicted of
conspiracy, it would have been frivo!ous{2018 U.S. Dist. LEXIS 14} for counsel to have pursued
Petitioner's claim, and thus counsel's actions would not constitute ineffective assistance of counsel.
See United States v. Hanley, 906 F.2d 1116, 1121 (6th Cir. 1990) (failure of defense counsel to
pursue frivolous motions and objections cannot constitute ineffective assistance of counsel).
"The focus in failure-to-investigate claims ... is the reasonableness of [counsel's] investigation (or
lack thereof)." English v. Romanowski, 602 F.3d 714, 726 (6th Cir. 2010). "[CJounsel has a duty to
make reasonable investigations or to make a reasonable decision that makes particular
investigations unnecessary." Strickland, 466 U.S. at 690-91. "[Strategic choices made after thorough
investigation of law and facts relevant to plausible options are virtually unchallengeable." Id. at 690.

lyfcases

5

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

4:-r-. ■ 2’.' < :

But "strategic choices made after less than complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the limitations on investigation." Id. at 691.
The Court finds that Petitioner's claims of ineffective assistance of counsel for failure to investigate
Wright's motives, the reason for the Government's seizure of only fifty-nine MPM files, the role of
Viney in discharging patients and the basis for his discharge decisions, and the legitimacy of the
conspiracy charges to be without merit. There{2018 U.S. Dist. LEXIS 15} is nothing in the record to
suggest that counsel's investigation was deficient in any manner, especially in light of the highly
deferential standard of Strickland, and nothing to establish that additional investigation of any kind
would have yielded any arguable defense in this case.
In addition, Petitioner cannot meet the second prong of the Strickland test. To meet the second
prong, Petitioner must show prejudice, i.e., that the outcome would have been different but for
counsel's ineffective assistance. Even if counsel's performance was deficient, relief will not be
granted unless petitioner was actually prejudiced. Harbison v. Bell, 408 F.3d 823, 830 (6th Cir. 2005),
cert, denied 547 U.S. 1101, 126 S. Ct. 1888, 164 L. Ed. 2d 574 (2006). Bare allegations of prejudice
are not sufficient; the petitioner must produce enough evidence to demonstrate a reasonable
probability that the outcome would have been different. Strickler v. Greene, 527 U.S. 263, 281-82,
119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999). Petitioner does not identify what, if anything, could have
been learned from further investigation by counsel. Without such information, which Petitioner must
produce, the Court cannot conclude that counsel could have learned anything which would have
changed the outcome. Accordingly, the claims of ineffective assistance of counsel for failure to
investigate on these grounds{2018 U.S. Dist. LEXIS 16} lack merit, and the Court finds that
Petitioner has failed under both prongs of Strickland.
2. Failure to File Pretrial Motions or Call Witnesses
Additionally, Petitioner claims ineffective assistance of counsel for failure to file pretrial motions and
to call certain witnesses [Doc. 303 pp. 6-7]. With respect to Petitioner's claim regarding pretrial
motions, she states that her counsel "failed to file pretrial motions even though he attended the
evidentiary hearing for the co-defendant and saw the benefit of doing so." Id. In reply, the
Government points out that her attorney did, in fact, file at least one such motion on her behalf [Doc.
320 p. 19; see Doc. 34], Petitioner cites several pretrial motions filed by Wright's counsel [Doc. 303-1
p. 39], but fails to specify which of these motions, if any, should have been filed or joined by counsel
on her behalf. Further, even if she were able to identify any such motion, Petitioner is not able to
show prejudice because, as the Government notes, all of the referenced motions filed by Wright's
counsel were denied, or at least denied in part.6 In giving proper deference to trial counsel, it is
presumed "that defense counsel has rendered adequate{2018 U.S. Dist. LEXIS 17} assistance by
exercising reasonable professional judgment and sound trial strategy." Austin v. Bell, 126 F.3d 843,
848 (6th Cir. 1997). "Trial strategy includes the decision not to file certain motions if, after
investigation, doing so would not be necessary or advantageous." Id. Absent Petitioner's
identification of a specific pretrial motion that her counsel should have filed that reasonably would
have resulted in a different verdict, Petitioner's claim must fail.
Similar to the decision of whether to file certain motions, defense counsel's decision as to whether to
call certain witnesses is likewise a part of trial strategy. The Sixth Circuit has held that the decision
whether to call a witness is "generally a matter of trial strategy and, absent a showing of prejudice,
the failure to call a witness does not deprive a defendant of effective assistance of counsel."
Samatar v. Clarridge, 225 Fed. Appx. 366, 372 (6th Cir. 2007). Failure to call a witness is presumed
to be a matter of trial strategy and constitutes ineffective assistance of counsel only when it deprives
a defendant of a substantial defense. See Chegwidden v. Kapture, 92 Fed. Appx. 309, 311 (6th Cir.

lyfcases

6

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

43512074

2004); Hutchison v. Bell, 303 F.3d 720, 749 (6th Cir. 2002). Further, a defense is substantial if it
might have made a difference in the outcome of the trial. Matthews v. Abramajtys, 319 F.3d 780,
790 (6th Cir. 2003) (citing Strickland, 466 U.S. at 693-96).
Petitioner asserts that Todd Gibson should have been called as a witness{2018 U.S. Dist. LEXIS 18}
to testify "to the number of times the defendant had tried to reach him, and what her concern was
when she did not make contact" [Doc. 303-1 p. 40]. Petitioner claims this testimony may have
"verified her request for assistance in returning the drugs ordered for the dispensary" [Doc. 303 p. 7].
This claim is purely speculative, and Petitioner provides no statement or affidavit from Gibson, so
the exact nature of his purported testimony is unknown. Likewise, Petitioner makes unsubstantiated
allegations concerning purported testimony of three MPM customers who were not called to testify.
Petitioner maintains that they were "satisfied customers of MPM and would have been able to testify
to how thoroughly they had been examined and what forms and procedure had been required of
them" [Doc. 303-1 p. 40], but she fails to identify the witnesses by name and provide any proof that
would verify or substantiate her claims as to the exact nature of their testimony.
Not only has Petitioner failed to provide the substance of any testimony one of the uncalled
witnesses would have given, she has also not shown how the outcome of her trial would have been
impacted. A court does not have to first decide{2018 U.S. Dist. LEXIS 19} whether there was any
deficiency in counsel's performance before examining whether any prejudice was suffered by a
defendant. Strickland, 466 U.S. at 697. Here, Plaintiff has made no showing of prejudice, which is
fatal to her claim. Accordingly, Petitioner's claims of ineffective assistance of counsel for failure to
call these potential witnesses lacks merit.
3. Failure to File Timely Motion for New Trial, to Challenge Variance Between Indictment and
Proof, and to Challenge Conspiracy Conviction in Absence of Codefendant Conviction
Petitioner next faults counsel for failing to submit a timely motion for new trial [Doc. 303-1 p. 41], to
challenge a variance between the indictment and the proof [Doc. 303 p. 5], and to challenge the
conspiracy conviction in absence of a codefendant conviction [Id.].
First, Petitioner claims that her counsel was ineffective for not filing a motion for new trial within the
time limit for doing so. Petitioner's Motion for a Judgment of Acquittal or in the Alternative Motion for
New Trial [Doc. 257] was filed on April 17, 2013. Petitioner was found guilty as to Counts One
through Fifty-Seven of the Third Superseding Indictment on October 4, 2012 [Doc. 22], Under the
fourteen-day period{2018 U.S. Dist. LEXIS 20} set forth in Federal Rules of Criminal Procedure
29(c) and 33(b)(2), and using the general rules of computing time as set forth in Rule 45, the time for
the filing of a motion under either rule expired on October 18, 2012. Petitioner's motion was denied
by order entered on August 5, 2013 [Doc. 275]. While Petitioner is correct in noting that the motion
was not filed within the required period, the Court notes that the time period during which it would
have been timely was when Petitioner had absconded7 and before she was apprehended in Florida
on October 31, 2012.8 Petitioner maintains, "When the defendant absconded from the trial, it was
unclear when she would return to Tennessee, but to protect her right to a new trial, the defense
attorney was required to file a Rule 29(c) motion within fourteen days of her guilty verdict" [Doc.
303-1 p. 41].
Under the Strickland test, Petitioner must show that but for the ineffective assistance of counsel
there is a reasonable probability that the Motion for a Judgment of Acquittal or in the Alternative
Motion for New Trial would have been granted in order to establish prejudice. In this regard, it is
noted that the Petitioner's request for a new trial on the basis of newly discovered evidence under
Rule 33 (timely filed{2018 U.S. Dist. LEXIS 21} within 3 years after the verdict), was fully considered
and denied as being without merit [Doc. 275], Further, Petitioner's motion for a new trial based on

lyfcases

7

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

alleged Brady violations by the government was reviewed de novo by the Sixth Circuit Court of
Appeals, and it was determined that Petitioner had not identified a Brady violation or resultant
miscarriage of justice. United States v. Guzman, 571 F. App'x 356 (6th Cir. 2014). At least to these
claims, Petitioner cannot make the required showing of prejudice, and she fails to articulate any
other bases for a new trial that could have been included in a timely motion and changed the
outcome of the proceeding. Thus, absent a showing of compelling prejudice, Petitioner cannot
establish that her counsel was ineffective based on this challenged action.
Second, Petitioner claims that her counsel failed to "challenge the variance in Count Two between
the indictment and evidence presented at trial" [Doc. 303 p. 5] and/or failed to "properly preserve the
issue of there being a constructive amendment or prejudicial variance ... for Counts One and Two"
[Doc 303-1 p. 26]. In response, the Government states that there was no variance. [Doc. 320 pp.
18-19], The Government points out that Count Two of{2018 U.S. Dist. LEXIS 22} the indictment
[Doc. 103]9 charged possession with intent to distribute controlled substances and that the
Government introduced evidence that Petitioner unlawfully maintained "a significant stash of
prescription narcotics at MPM, which Guzman plainly procured and kept with the intent of
distributing" [Doc. 320 p. 19].
The Court notes that this issue was also raised and considered on direct appeal. Id. Thus, the record
belies Petitioner's argument that counsel failed to challenge her conspiracy conviction based on a
variance between the indictment and the proof. Petitioner cannot use a § 2255 proceeding, in the
guise of ineffective assistance of counsel, to relitigate issues decided adversely to her on direct
appeal. See, e.g., DuPont v. United States, 76 F.3d 108, 110 (6th Cir. 1996). "A § 2255 motion may
not be used to relitigate an issue that was raised on appeal absent highly exceptional
circumstances." United States v. Brown, No. 94-5917, 1995 U.S. App. LEXIS 23144, 1995 WL
465902, at *1 (6th Cir. Aug. 4, 1995) (citations omitted), cert, denied, 516 U.S. 942, 116 S. Ct. 377,
133 L. Ed. 2d 301 (1995). Because the claim asserted in Petitioner's § 2255 motion is substantively
identical to one of the issues that Petitioner presented in her direct appeal following conviction, and
because no exceptional circumstances exist in this action, the Court finds Petitioner's claim of
ineffective assistance of counsel for failure{2018 U.S. Dist. LEXIS 23} to challenge the purported
variance between the indictment and proof presented at trial to be without merit.
Lastly, Petitioner argues that her counsel provided ineffective assistance because he "failed to
challenge the requirement that co-conspirator Wright should have gone to trial and the
co-conspirator's guilt or innonce [sic] be determined prior to the defendant's sentencing hearing"
[Doc. 303 p. 4]. Petitioner's claim with regard to the alleged failure of her counsel to challenge the
"requirement" that co-conspirator Wright go to trial and be convicted as a prerequisite to her
conviction is intertwined with the claim she raised above regarding counsel's failure to investigate the
legitimacy of the conspiracy charge. As discussed above, her argument is premised upon an
incorrect understanding of conspiracy law, and there is no "requirement" that Wright be tried and
convicted before Petitioner was sentenced. Petitioner's attorney did not render ineffective assistance
of counsel by failing to attempt a challenge in this regard. See Hanley, 906 F.2d at 1121.
Accordingly, Petitioner’s claim is without merit.
B. Sufficiency of the Evidence
Petitioner attempts to challenge the sufficiency of evidence for convictions{2018 U.S. Dist. LEXIS
24} on Counts One and Two [Doc. 303 p. 9] and for convictions of money laundering and structuring
[Doc. 303 p. 10], Petitioner argues that the Government failed to provide evidence of intent on her
part to illegally distribute drugs [Doc. 303 p. 9] and that because of the insufficiency of the evidence
to support Counts One and Two, the "money laundering and structuring counts fail" [Doc. 303 p. 10].

1 yfcases

8

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

In addition to arguing the failure of the convictions due to their nexus with Counts One and Two,
Petitioner attempts to directly attack the sufficiency of the evidence that supported her convictions
for money laundering [Doc. 303-1, p. 66] and structuring [Doc. 303-1 p. 68]. Petitioner admits these
claims were raised on direct appeal, but notes without explanation that they were "partially" raised
[Doc. 303 p. 10].
As maintained by the Government, the Court agrees that these claims of Petitioner are not properly
before the Court. "[A]n issue challenging the sufficiency of the evidence may only be raised on direct
appeal; it is not cognizable in a § 2255 motion." Kimbro v. United States, No. 94-3446, 1994 U.S.
App. LEXIS 27810, 1994 WL 532935, at *2 (6th Cir. Sept. 30, 1994) (citing United States v. Osborn,
415 F.2d 1021, 1024 (6th Cir. 1969) (en banc), cert, denied, 396 U.S. 1015, 90 S. Ct. 567, 24 L. Ed.
2d 506 (1970)). Here, Petitioner raised these issues on appeal, and the Sixth Circuit specifically
found that the evidence{2018 U.S. Dist. LEXIS 25} "amply established her guilt." Guzman, 571 F.
App'x at 363. "A § 2255 motion may not be used to relitigate an issue that was raised on appeal
absent highly exceptional circumstances." DuPont v. United States, 76 F.3d 108, 110 (6th Cir. 1996)
(citations omitted). Since these issues were raised and answered on direct appeal, and Petitioner has
not identified any highly exceptional circumstances, Petitioner is not entitled to relitigate these issues
in a § 2255 motion.
C. Trial Court Errors and Ineffective Assistance of Counsel in Failing to Raise Issues
Petitioner's final arguments in her original § 2255 motion are based upon allegations of errors made
by the Court, and she interlinks claims of ineffective assistance of counsel in failing to properly raise
or pursue the errors. Petitioner claims that the Court erred in (1) calculating drug quantities to
determine offense level [Doc. 303 p. 8]; (2) applying leadership enhancement [Doc. 303 p. 11]; (3)
establishing amounts for forfeiture [Doc. 303 p. 12]; and (4) applying version 2012 of the Sentencing
Guidelines [Doc. 303 p.13].
1. Calculation of Drug Quantities to Determine Offense Level
In further regard to the MPM files discussed in Section II.A.1 above, Petitioner claims that her
counsel had not "prepared effectively to enable him to{2018 U.S. Dist. LEXIS 26} refute the
spreadsheet and the drug quantity used in sentencing" [Doc. 303 p. 8]. Although not entirely clear, it
appears Petitioner argues that her counsel afforded ineffective assistance with regard to a
sentencing error. While making no specific allegation that such sentencing error occurred, Petitioner
asserts, "One of the key issues in all of this is using only 60 files and extrapolating from that small
number to a number more than 30 times that amount to be representative of the entire MPM patient
list" [Doc. 303-1 p. 52]. She generally claims it was improper to extrapolate assumptions regarding
files that were not seized from information contained in files that were seized, citing United States v.
Chube, 538 F.3d 693 (7th Cir. 2009) in support of this proposition. In response, the Government
argues that Petitioner's reliance upon Chube is misplaced and that Sixth Circuit precedent plainly
allows a district court to draw reasonable inferences from the evidence presented at trial, including
evidence of drug quantities, citing United States v. Leal, 75 F.3d 219, 229 (6th Cir. 1996), abrogated
on other grounds by United States v. Ellerbee, 73 F.3d 105, 107 (6th Cir. 1996) [Doc. 320 p. 23], The
Government further argues that to the extent the Petitioner's challenge is to the propriety of her
sentence, it is procedurally defaulted and unreviewable{2018 U.S. Dist. LEXIS 27} [Doc. 320 pp.
25-28],
As an initial matter, and as raised by the Government, the Court notes that this claim could have
been but was not raised on direct appeal, and therefore is procedurally defaulted. See United States
v. Frady, 456 U.S. 152, 167-68, 102 S. Ct. 1584, 71 L. Ed. 2d 816 (1982) (holding that when a §
2255 movant could have raised a claim at trial or on direct appeal but did not, § 2255 relief on that

lyfcases

9

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

claim is deemed procedurally defaulted and may not be reviewed absent a showing of "cause" to
excuse the default and "actual prejudice" resulting therefrom).
Regardless of the procedural default, Petitioner's claim still fails. Petitioner has not even attempted a
"cause and prejudice" showing or actual innocence showing, but rather, her statements have
confirmed her guilt. As noted in the Government's response, in Petitioner's efforts to prove that
Wright was more culpable than her, Petitioner admits some of the crucial facts that established her
guilt [Doc. 320 p. 24], Moreover, the record in this case reflects that the issue of drug amounts
involved in the conspiracy related to calculation of the offense level was fully argued by counsel and
considered by the Court as Objection 11 to the presentence report [Doc. 291 pp. 92-95], The Court
determined that "the method utilized{2018 U.S. Dist. LEXIS 28} was a conservative estimate of the
amount of prescription narcotics involved in the conspiracy" [Id. at 93-94], The Court noted that "the
Sixth Circuit has held that if the precise amount of drugs involved is uncertain, an estimate will
suffice so long as such estimate errs on the side of caution and likely underestimates the quantity of
drugs attributable to the Defendant" [Id. at 93], and found that the drug amount was sufficiently more
than the "requisite to impose an offense level of 38" [Id. at 94-95], Because the Court holds that
Petitioner's offense level was calculated correctly, there is no basis to support a finding of ineffective
assistance of counsel in this regard. Without first demonstrating error, Petitioner cannot satisfy the
Strickland test. Further, since Petitioner failed to raise this issue on direct appeal, and has not
demonstrated either "cause" and actual "prejudice," or that she is actually innocent, her claims
cannot be reviewed in this collateral proceeding. Bousley v. United States, 523 U.S. 614, 621-22,
118 S. Ct. 1604, 140 L. Ed. 2d 828 (1998).
2. Leadership Role Enhancement
Petitioner argues that the Court erred in applying the leadership role enhancement and that her
counsel failed to raise the issue [Doc. 303 p. 11]. Petitioner's argument is based on her assertion that
coconspirator{2018 U.S. Dist. LEXIS 29} Wright was actually "the person in charge of the policies,
practices and procedures for MPM." Id. The Government responds that Petitioner has procedurally
defaulted this claim for not having raised it on direct appeal [Doc. 320 p. 25], but nonetheless states
that applying an enhancement based upon Petitioner's leadership role was appropriate citing
evidence presented at trial [Doc. 320 p. 26].
The Court agrees that Petitioner has procedurally defaulted her challenge to the leadership role
enhancement by failing to raise it on direct appeal. But, as discussed with regard to the drug quantity
calculation, Petitioner's claim still fails regardless of the default. The Court finds that the application
of the leadership role enhancement was appropriate, and thus, absent error, there is no basis to
support a finding of ineffective assistance of counsel in this regard. Petitioner failed to raise this
issue on direct appeal, and has not demonstrated either "cause" and "actual prejudice," or that she is
actually innocent, so her claim cannot be reviewed in this collateral proceeding. Bousley, 523 U.S. at
621-22.
3. Forfeiture
With respect to forfeiture issues, Petitioner makes several arguments, including error by the
Court{2018 U.S. Dist. LEXIS 30} in "establishing the amounts for forfeiture" and that "[t]he same
dollar was charged against the defendant as much as three times" [Doc. 303 p. 12]. In addition,
Petitioner alleges counsel provided ineffective assistance in failing to challenge these issues. The
Government responded in opposition stating that Petitioner's claims, even if well-taken, would not be
subject to review through a § 2255 petition. [Doc. 320 p. 29].
As an initial matter, the Court notes that Petitioner's claims regarding improper forfeiture are not

1 yfcases

10

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

properly before the Court. "A § 2255 petition may not be used to challenge penalties merely
collateral to imprisonment, such as fines and forfeiture of property." McGee v. United States, No.
1:08-CV-499, 2010 U.S. Dist. LEXIS 4674, 2010 WL 310770, at *1 (W.D. Mich. Jan. 21, 2010).
Forfeiture is not a sufficient restraint on liberty to meet the requirements for habeas corpus relief.
See McShepard v. Shewalter, No. 1:09-CV-2042, 2010 U.S. Dist. LEXIS 141678, 2010 WL 5887798,
at *18 (N.D. Ohio Dec. 23, 2010), report and recommendation adopted, No. 1:09-CV-2042, 2011 U.S.
Dist. LEXIS 19416, 2011 WL 767726 (N.D. Ohio Feb. 28, 2011).
With respect to Petitioner's claim of ineffective assistance of counsel in failing to raise the forfeiture
issues, the Court finds the claim to be without merit. As the Government points out, the scope of the
forfeitures that were triggered by Petitioner's offenses varied according to the applicable{2018 U.S.
Dist. LEXIS 31} statutory bases [Doc. 320 p. 29]. Petitioner's generalized assertions of error are
based on a misunderstanding of forfeiture, and because the Court rejects her claims, counsel did not
deficiently perform by not raising the meritless claims. Mapes v. Coyle, 171 F.3d 408, 427 (6th Cir.
1999) ("Counsel could not be unconstitutionally ineffective for failing to raise these meritless
arguments.'1).
4. Challenge to 2012 Version of the Sentencing Guidelines
Petitioner further faults her counsel for not challenging the use of the 2012 Sentencing Guidelines
instead of the 2009 Sentencing Guidelines, and thus, claims a violation of the Ex Post Facto Clause
[Doc. 303 p. 13]. As with Petitioner's purported challenge to the drug quantity used for sentencing
and the application of the leadership role enhancement, the Court notes initially that this claim is also
procedurally defaulted. Petitioner likewise failed to raise this issue on direct appeal, and does not
make the required showing either that (1) she had good cause for not raising it earlier and would
suffer "actual prejudice" if it were not reviewed, or (2) she is actually innocent. Bousiey, 523 U.S. at
621-22. As noted by the Government, it was appropriate to use the 2012 version since Petitioner was
sentenced in that same year. See{2018 U.S. Dist. LEXIS 32} U.S.S.G. § 1 (31.11(a) ("[t]he court shall
use the Guidelines Manual in effect on the date that the defendant is sentenced"). A defendant may
only be sentenced under an earlier version of the Sentencing Guidelines if use of the current version
would yield a higher sentencing range than the version in place at the time of the offense. See
U.S.S.G. § 1B1.11, Application Note 2; Peugh v. United States, 569 U.S. 530, 533, 133 S. Ct. 2072,
186 L. Ed. 2d 84 (2013).
Regardless of the procedural default, and because the Court holds that the application of the 2012
version of the Sentencing Guidelines was correct, the decision of Petitioner's counsel not to object to
the use of the 2012 version at sentencing or to raise the challenge on appeal was not in error.
Without first demonstrating error, the Petitioner cannot satisfy the Strickland test. Rhodes v. United
States, 443 F. Supp. 2d 893, 901 (N.D. Ohio 2006). Accordingly, Petitioner's claims of ineffective
assistance of counsel in this regard are without merit.
III. TIMELINESS OF ADDENDUM AND AMENDMENT
Having addressed the claims Petitioner raised in her original § 2255 petition, the Court now turns its
attention to Petitioner's Addendum to the § 2255 petition that was filed on October 22, 2015 [Doc.
325], and Plaintiff's Motion to Amend that was filed on April 11, 2016 [Doc. 329], In both the
Addendum and the Motion to Amend, Petitioner raises new claims that are unrelated to those set
forth in her original § 2255 petition.
A § 2255 motion is subject to a one-year statute of limitations. 28 U.S.C. § 2255(f). This same
provision governs the timeliness of later-filed amendments. Cameron v. United States, No.
1:05-cv-264, 2012 U.S. Dist. LEXIS 48381, 2012 WL 1150490, at *3-6 (E.D. Tenn. April 5, 2012)

1 yfcases

11

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

(citing Oleson v. United States, 27 F. App'x 566 (6th Cir. 2001)). If the amendment is not timely filed,
the Court looks to equitable tolling{2018 U.S. Dist. LEXIS 33} rules and Rule 15 of the Federal Rules
of Civil Procedure in reaching its decision regarding the timeliness of the proposed amendment.
Mayle v. Felix, 545 U.S. 644, 656-57, 125 S. Ct. 2562, 162 L. Ed. 2d 582 (2005). Amendments made
after the statute of limitations has run relate back to the date of the original pleading if the original
and the amended pleadings "arose out of the conduct, transaction, or occurrence set out. . . in the
original pleading." Fed. R. Civ. P. 15(c)(1)(B). "[A] party cannot amend a § 2255 petition to add a
completely new claim after the statute of limitations has expired." United States v. Clark, 637 F.
App'x 206, 209 (6th Cir. 2016) (citing United States v. Thomas, 221 F.3d 430, 436 (3d Cir. 2000)).
A. Applicable Statute of Limitations for Addendum and Amendment
Petitioner had one year from the time her judgment of conviction became final to file a § 2255
motion. Since Petitioner took an unsuccessful direct appeal from her judgment of conviction, and did
not seek certiorari, the judgment became final for postconviction relief purposes when the time
expired for filing a petition for certiorari contesting the appellate court's affirmation of the
conviction-or ninety days after entry of judgment by the Court of Appeals. Clay v. United States, 537
U.S. 522, 527, 123 S. Ct. 1072, 155 L. Ed. 2d 88 (2003). Here, the Court of Appeals entered
judgment on July 2, 2014 [Doc. 299], and Petitioner was required to timely file any claims pursuant to
§ 2255 no later than September 30, 2015.
Petitioner's original § 2255 motion was timely filed on February 2, 2015 [Doc. 303]. However,
Petitioner's addendum{2018 U.S. Dist. LEXIS 34} to her § 2255 motion [Doc. 325] raising a new
claim was filed on October 22, 2015, after the applicable one-year statute of limitations expired. In
addition, Plaintiff's Motion to Amend [Doc. 329], which also raises new claims, was filed on April 11,
2016, also beyond the applicable one-year statute of limitations.
B. Relation Back Under Federal Rule of Civil Procedure 15(c)
Petitioner's addendum does not escape the statute of limitations by "relating back" to the claims in
her original § 2255 motion because her addendum attempts to raise an entirely new argument that
does not relate back to the claims in her timely filed original § 2255 motion. See Oleson v. United
States, 27 Fed. Appx. 566, 2001 WL 1631828, at *3 (6th Cir. 2001). When an amendment is
untimely, the Court looks to Federal Rule of Civil Procedure 15(c) to determine whether the proposed
claim "relate[s] back" to a timely, original pleading and is thus saved from being time barred by
expiration of the statute of limitations. Mayle, 545 U.S. at 656-57. The amended claim relates back if
it arises out of "the [same] conduct, transaction, or occurrence set out-or attempted to be set out-in
the original pleading." Fed. R. Civ. P. 15(c)(1)(B). The Supreme Court has rejected a broad reading
of "conduct, transaction, or occurrence" in the context of post-conviction relief and explained an
amended petition will not relate back "when it asserts a new{2018 U.S. Dist. LEXIS 35} ground for
relief supported by facts that differ in both time and type from those [set forth in] the original
pleading." Mayle, 545 U.S. at 650. It is insufficient-and a claim is time-barred-if the new claim merely
arises from the same trial, conviction, or sentence. Id. at 662.
In Petitioner's original § 2255 motion, she alleged three general grounds of collateral attack:
ineffective assistance of counsel, sufficiency of evidence, and trial court errors. In her Addendum,
Petitioner attempts to add a purported defensive claim that "the offenses such as the defendant has
been charged with from 2008 to 2010 were not against Tennessee law at the time they were alleged
to have been committed" [Doc. 325 p. 5], Petitioner's proposed claim relating to the State of
Tennessee's regulatory laws cannot be characterized as relating to a pre-existing, timely collateral
challenge to her federal conviction. As noted by the Government, Tennessee's regulatory scheme is
wholly irrelevant to Petitioner's subject conviction [Doc. 337 p. 3], and accordingly Petitioner's

1 yfcases

12

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

J J

addendum is time-barred.
Similarly, the claims Petitioner attempts to raise in her untimely Motion to Amend likewise fail to
relate back to the claims in her original § 2255 motion.{2018 U.S. Dist. LEXIS 36} In the Motion to
Amend, Petitioner alleges two new claims ostensibly based on Luis v. United States, 136 S. Ct.
1083, 194 L. Ed. 2d 256 (2016) [Doc. 329]. Petitioner claims "(1) ineffective assistance of counsel
where counsel failed [sic] to assist Guzman in obtaining untainted assets so she could retain counsel
of choice; and (2) the Government violated Guzman's Sixth Amendment where they retained
untainted assets depriving Guzman of counsel of choice-a structural error in the proceeding" [Doc.
329 p. 1], The Government responds that Petitioner's claims are wholly unrelated to her original §
2255 motion, and that they are meritless because "Luis was decided after her judgment became final
and is not retroactively applicable to cases on collateral review" [Doc. 337 p. 6].
The Court finds that Petitioner's claims raised in her Motion to Amend must fail in several respects.
First, Petitioner's claims center on claims of untainted assets that she alleges the Government
improperly retained and that defense counsel should have helped her to obtain in order to afford
hiring counsel of her choice. As noted above, Petitioner's Motion to Amend was untimely filed, and
the new claims asserted therein do not relate back to any claims in her original § 2255 petition. The
only forfeiture{2018 U.S. Dist. LEXIS 37} claims mentioned in the original petition are those
discussed in Section II.C.3 above and determined to be improperly before the Court, and as such,
there can be no relation back to a valid claim. Further, as the Government correctly notes, Luis
provides no support for Petitioner's arguments. In that case, the Supreme Court held that "the pretrial
restraint of legitimate, untainted assets needed to retain counsel of choice violates the Sixth
Amendment." Luis, 136 S. Ct. at 1088. But here, Petitioner has not alleged that she had any
untainted pretrial assets to be retained, and in fact swore in her financial affidavit at the outset of her
case that she did not have sufficient assets to afford counsel [Doc. 17]. Finally, even if Petitioner
were to have made a sufficient claim that she had legitimate, untainted assets, Petitioner has not
established that Luis has been made retroactively applicable to cases on collateral review. In re
Mazzio, 756 F.3d 487, 489-90 (6th Cir. 2014) ("[A] new rule is not 'made retroactive to cases on
collateral review1 unless the Supreme Court holds it to be retroactive.") (quoting Tyler v Cain, 533
U.S. 656, 663, 121 S. Ct. 2478, 150 L. Ed. 2d 632 (2001)). Accordingly, Petitioner's Motion to Amend
is found to be untimely and without merit.
IV. CONCLUSION
The Court finds that Petitioner is not entitled to relief pursuant{2018 U.S. Dist. LEXIS 38} to 28
U.S.C. § 2255, and her motion to vacate, set aside or correct sentence [Doc. 303], Addendum [Doc.
325], and Motion to Amend [Doc. 329] will be DENIED and this action will be DISMISSED. A hearing
is unnecessary in this case. The Court will CERTIFY that any appeal from this action would not be
taken in good faith and would be totally frivolous. Therefore, this Court will DENY petitioner leave to
proceed in forma pauperis on appeal. See Fed. R. App. Proc. 24. Petitioner having failed to make a
substantial showing of the denial of a constitutional right, a certificate of appealability SHALL NOT
ISSUE. 28 U.S.C. § 2253; Fed. R. Ap. Proc. Rule 22(b). A Judgment will enter DENYING the Motion
[Doc. 303] and related Addendum [Doc. 325] and Motion to Amend [Doc. 329].
IT IS SO ORDERED.
Isl Thomas A. Varlan
CHIEF UNITED STATES DISTRICT JUDGE
JUDGMENT

1 yfcases

13

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

\

■"

•

For the reasons expressed in the accompanying memorandum opinion and order filed herewith, it is
ORDERED and ADJUDGED that the Motion [Doc. 303] and related Addendum [Doc. 325] and
Motion to Amend [Doc. 329] by federal prisoner Tamral Guzman for post-conviction relief pursuant
to 28 U.S.C. § 2255 is DENIED and DISMISSED WITH PREJUDICE. Petitioner's remaining Motion
[Doc. 335] is DENIED AS MOOT.1
If Petitioner files a notice of appeal from{2018 U.S. Dist. LEXIS 39} this judgment, such notice of
appeal will be treated as an application for a certificate of appealability, which is DENIED pursuant to
28 U.S.C. § 2253(c)(2) and Federal Rule of Appellate Procedure 22(b) because she has failed to
make a substantial showing of the denial of a federal constitutional right. The Court CERTIFIES
pursuant to 28 U.S.C. § 1915(a)(3) and Federal Rule of Appellate Procedure 24 that any appeal from
this judgment by Petitioner would be frivolous and not taken in good faith.
ENTER:
Isl Thomas A. Varlan
CHIEF UNITED STATES DISTRICT JUDGE
Footnotes

1
All citations to the record are found on the docket of case no. 3:10-CR-161-TAV-DCP.
2
U.S. Const, art. 1, § 10, cl. 1.
3
While not filing a separate formal response to Petitioner's Addendum [Doc. 325], the Government
did address the claim raised in the Addendum by arguing the claim was both untimely and irrelevant
in its Response to Petitioner's Motion to Amend Petition Filed Pursuant to 28 U.S.C. § 2255 [Doc.
337 p. 3],
4
Case No. 3:12-CR-0153 [Doc. 27],
5
The Government notes that the remaining files remained in the custody of Petitioner and that she
could have used them in her defense as she deemed appropriate [Doc. 320 p. 16],
6
See Memorandum and Order [Doc. 138] granting and denying in part Motion for Production of
Favorable Evidence and Motion for Rule 16 discovery as to Maimoune Wright [Docs. 75, 76] and
denying Defendant's Objection to Release of Protective Order and Motion to Preserve Patient
Records and Provide Defendant Wright Access Thereto [Doc. 114] and Memorandum and Order
[Doc. 200] denying Wright's Amended Motion to Dismiss for Duplicity and to Strike Surplussage in
Second Superseding Indictment, Motion to Dismiss for Preindictment Delay and Failure to Preserve
Evidence, and Motion to Dismiss for Selective Prosecution [Docs. 69, 71, and 73, respectively].
7
Bench Warrant Issued as to Petitioner on October 2, 2012, for failure to appear [Doc. 217].
8

1 yfcases

14

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
. restrictions and terms and conditions of the Matthew Bender Master Agreement.

4351 ?Q

